                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTlGA TlONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: 1-12-05-0021                                                                         Page 1 of 1



                   We received an allegation that an NSF contractor 1 and its personnee may have committed a
           Procurement Integrity Act 3 violation, based on an unauthorized disclosure of a competitor's4
           proprietary information to the contractor. According to the allegation, the contractor incorporated
           some of the proprietary information into its proposal to NSF for a contract for which the competitor
           was also bidding. 5 NSF awarded the contract to the contractor.

                    We determined that the disclosures of information occurred before NSF issued its request for
           proposals, and that no government personnel were involved in the disclosures of information. Under
           these circumstances we concluded that no Procurement Integrity Act violation had occurred. We
           elected, after coordination with the U.S. Attorney's Office for the Eastern District of Virginia, to
           defer consideration of possible false statements in the contractor's proposal until after the outcome of
           NSF ' s administrative processing of the matter. 6

                       Accordingly, this case is closed.




           6




NS F OIG Form 2 ( 11 /02 )
